PROOF OF SERVICE
I, Paul Poupart, have mailed a copy of this application for
writ of certiorari to the Defendants: Jeffrey Landry, Attorney
General of Louisiana, at 1885 N. 3rd Street, Baton Rouge,
Louisiana 70801; LA Department of Public Safety & Corrections
Secretary, James LeBlanc, at Post Office Box 94304, Baton
Rouge, Louisiana 70804; Clerk of Court for the 24th Judicial
District Courtt, Jon Gegenheimer, ajr Post Office Box 10, Gretna,
Louisiana 70054 - and the same for 24th Judicial District Court
Judge, Cornelius Regan; and Clerkof the Court, U.S. Supreme
Court, Scott Harris; at 1 1st Street, NE, Washington, DC 209430001, on this 1 7 day of the month of
7TL lu_______________ *
the year 2020.

m
Inmate, Paul M. Poupart
Parish of Iberville
State of Louisiana
United States of America

29

